     Department of Homeland Security

     ��������������������������



Transportation Security Administration's Deployment 

     and Use of Advanced Imaging Technology 





OIG-13-120                            September 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                        SEP 16 2013

MEMORANDUM FOR: 	             John W. Halinski
                              Deputy Administrator
                              Transportation Security Administration

FROM:                         A
                              	 nne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Transportation Security Administration’s Deployment and Use
                              of Advanced Imaging Technology

Attached for your information is our final report, Transportation Security Administration’s
Deployment and Use of Advanced Imaging Technology. We incorporated the formal
comments from the Transportation Security Administration in the final report.

The report contains two recommendations aimed at improving the deployment and use of
advanced imaging technology. Your office concurred with both recommendations.
However, TSA’s response did not include steps to implement the recommendations. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of the
date of this memorandum, please provide our office with a written response that includes
your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until your response to the recommendations is received
and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 4

              Strategic Deployment Planning .............................................................................. 4 

              Data Reliability ........................................................................................................ 6 

              Recommendations .................................................................................................. 9 

              Management Comments and OIG Analysis ............................................................ 9 

              


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 11
              Appendix B:          Management Comments to the Draft Report ............................... 13
              Appendix C:          Major Contributors to This Report ................................................ 16
              Appendix D:          Report Distribution ........................................................................ 17

   Abbreviations
              AIT                   advanced imaging technology
              DHS                   Department of Homeland Security
              GAGAS                 generally accepted government auditing standards
              OIG                   Office of Inspector General
              PMIS                  Performance Measurement Information System
              TSA                   Transportation Security Administration
              TSO                   Transportation Security Officer




www.oig.dhs.gov                                                                                                                 OIG-13-120 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Transportation Security Administration (TSA) secures the nation’s airports and screens
   commercial airline passengers and baggage. It uses advanced imaging technology to screen
   passengers for metallic and nonmetallic threats, including weapons, explosives, and other
   concealed objects, without physical contact.

   TSA began deploying advanced imaging technology in 2007 and accelerated its deployment
   after the attempted airplane bombing on December 25, 2009. In 2012, Representative John
   Mica requested that the Department of Homeland Security (DHS) Office of Inspector
   General (OIG) conduct an audit to determine whether TSA is effectively deploying advanced
   imaging technology and is fully utilizing the equipment at airports.

   TSA created and followed deployment schedules. However, it did not develop a
   comprehensive deployment strategy to ensure all advanced imaging technology units
   were effectively deployed and fully used for screening passengers. This condition
   existed because TSA did not—

           •	 Have a policy or process requiring program offices to prepare strategic
              deployment plans for new technology that align with the overall goals of the
              Passenger Screening Program, and
           •	 Have adequate internal controls to ensure accurate data on advanced
              imaging technology utilization.

   Without a documented, approved, comprehensive plan and accurate data on the use of
   advanced imaging technology, TSA continued to use walkthrough metal detectors,
   which are unable to identify non-metallic objects, to screen the majority of passengers;
   therefore not taking advantage of the advanced imaging technology’s security benefits.
   Additionally, TSA may have used resources inefficiently to purchase and deploy
   underused advanced imaging technology units.

   We made two recommendations to improve the effectiveness of how TSA deploys and
   measures the use of advanced imaging technology. TSA concurred with both
   recommendations.




www.oig.dhs.gov                               1	                                     OIG-13-120

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Background
   TSA was created to strengthen the security of the nation’s transportation systems and
   ensure the freedom of movement for people and commerce. TSA is responsible for
   conducting checkpoint screening operations at federalized airports. Its mission is to
   conduct screening operations in a manner that maximizes passenger throughput and
   threat detection while alleviating privacy concerns. Within TSA, the Passenger
   Screening Program is responsible for providing technology to screen passengers and
   carry-on baggage at airport security checkpoints.

   Historically, TSA used walkthrough metal detectors to                               Types of AIT
   screen passengers at airport security checkpoints. As 	                 Millimeter wave technology uses
   the threat to transportation security evolved, TSA                      electromagnetic waves to create the
                                                                           same generic image for all
   needed a screening technology to detect nonmetallic                     passengers.
   threats. Advanced imaging technology (AIT) screens
   passengers for metallic and nonmetallic threats,                        Backscatter technology projects
                                                                           low-level X-ray beams over the body
   including weapons, explosives, and other concealed                      to create a reflection of the body
   objects, without physical contact. TSA began                            displayed on the monitor.
   deploying AIT in 2007 and accelerated its deployment
                                                                           Source: TSA.
   after the attempted airplane bombing on December
   25, 2009.1

   TSA deployed AIT with millimeter wave and backscatter technologies. Both types of AIT
   create an image of a passenger’s body that identifies items not readily visible. Initial AIT
   units required a Transportation Security Officer (TSO) to review and interpret the
   images, generating privacy concerns among travelers and members of Congress.
   Figure 1: AIT with Automated Target Recognition
                                                                    In 2011, TSA added automatic
                                                                    target recognition software to the
                                                                    millimeter wave AIT. Automatic
                                                                    target recognition software
                                                                    addresses privacy concerns by
                                                                    interpreting images and displaying
                                                                    the results on a generic figure, as
                                                                    shown in figure 1. The FAAf
                                                                    ModernizationfandfReformfActfoff
   Source:ffL3fCommunications.                                      2012 mandated that, beginning




   1
       Northwest Airlines flight 253 was the target of a failed Al-Qaeda bombing attempt.

www.oig.dhs.gov                                          2	                                              OIG-13-120

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   June 2012, TSA shall ensure AIT used for passenger screening is equipped with
   automatic recognition software. The TSA Administrator issued a waiver extending the
   deadline to June 1, 2013.

   As of January 2013, TSA had purchased 997 AIT units at a total cost of approximately
   $150 million. Table 1 provides a summary of the total cost of all AIT units purchased.

                  Table 1: Cost of AIT Units Purchased
                                                     Cost of AITs by       No. of AIT Units
                       Type             Unit Cost
                                                          Type               Purchased
               Millimeter Wave AIT         $148,200   $110,557,200                746
                 Backscatter AIT           $159,584     40,055,584                251
                      Total                           $150,612,784                997
              Source:fOIGfanalysisfoffTSAfdata.f


   In January 2013, TSA decided to remove all backscatter AIT units from airports because
   these units would not meet the June 2013 deadline to comply with the FAAf
   ModernizationfandfReformfActfoff2012. This affected 251 units purchased for
   approximately $40 million.

   TSA uses passenger throughput data entered into the Performance Measurement
   Information System (PMIS) to measure the use of AIT. TSA extracts data from PMIS to
   provide throughput information to airport Federal Security Directors and TSA leadership
   to assist in managing operations. TSOs manually collect and enter passenger checkpoint
   throughput data (such as AIT and walkthrough metal detector throughput) into PMIS.
   TSA has not performed a reliability assessment on AIT throughput data recorded in
   PMIS.

   Representative John Mica, Chairman, Subcommittee on Government Operations,
   Committee on Oversight and Government Reform requested this audit in January 2012.
   Representative Mica expressed concern about TSA purchasing and deploying AIT units
   that it is not using at the airports. 2 This report responds to his request. Our objective,
   scope, and methodology are provided in appendix A.




   2
    Representative Mica requested this audit during the last congressional term where he served as
   Chairman of the House Transportation and Infrastructure Committee.

www.oig.dhs.gov                                       3                                              OIG-13-120

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit
   TSA created and followed deployment schedules showing the order in which airports
   would receive AIT units. However, it did not develop a comprehensive deployment
   strategy to ensure all AIT units were effectively deployed and fully used for screening
   passengers. This condition existed because TSA did not—

           •	 Have a policy or process requiring program offices to prepare strategic
              deployment plans for new technology that align with the overall goals of the
              Passenger Screening Program, and
           •	 Have adequate internal controls to ensure accurate data on AIT utilization.

   Without a documented, approved, comprehensive plan and accurate data on the use of
   advanced imaging technology, TSA continued to use walkthrough metal detectors,
   which are unable to identify non-metallic objects, to screen the majority of passengers;
   therefore not taking advantage of the advanced imaging technology’s security benefits.
   Additionally, TSA may have used resources inefficiently to purchase and deploy
   underused AIT units.

           Strategic Deployment Planning

           TSA did not develop a strategic deployment planning document to address the
           introduction and use of AIT to screen passengers at airports. Rather than
           develop a comprehensive strategic deployment plan, TSA created documents
           and schedules with short term goals based on institutional knowledge to deploy
           AIT. Documents that TSA provided contained inconsistent information or were
           not signed by senior leadership, creating doubt as to whether the documents
           were ever approved. In addition, TSA did not have a policy or process requiring
           program offices to document strategic deployment plans for new technology
           that align with the goals of the Passenger Screening Program. Without a
           documented, approved, comprehensive strategic deployment plan to address
           short- and long-term goals, TSA may have inefficiently used resources to
           purchase and deploy underused AIT units.

           Deployment Planning Documents

           TSA created and followed deployment schedules and documents identifying
           short term goals, but did not develop a comprehensive strategic deployment
           plan. A strategic deployment plan would provide TSA a baseline to respond to
           and plan for evolving threats, goals, and priorities. TSA and DHS do not have
           specific policies or procedures for developing or documenting deployment plans.

www.oig.dhs.gov                                4	                                      OIG-13-120

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           An effective strategic deployment plan should include the purpose and
           description, identify necessary tasks, define roles and responsibilities, identify
           logistics requirements, document site selection methodology and deployment
           schedule, and outline disposal plans.

           TSA created deployment schedules that documented the order in which airports
           would receive AIT units. TSA based the deployment schedules on the following
           three priorities:

                  •   High threat airports with available Transportation Security Officers,
                  •   AIT pilot locations, and
                  •   Highest threat airports.

           TSA also considered airport size and available space, but not as a separate factor.
           TSA measured the airport’s screening area dimensions (i.e., ceiling height, lane
           width) to ensure AIT units could fit the space before including an airport on the
           deployment schedule. These documents did not show how or to what extent
           TSA aligned AIT deployment with the overall goals of the Passenger Screening
           Program.

           Additionally, TSA deployed AIT using information contained in various
           documents that were fragmented and developed independently from one
           another. Some documents contained inconsistent information and were
           unsigned and undated, and provided no evidence of TSA’s senior leadership
           approval. TSA had difficulty providing historical information as well. TSA could
           not provide strategic deployment planning documents created before 2010; yet
           the component deployed an AIT unit at the Phoenix Sky Harbor International
           Airport in 2007. Strategic planning is important for a successful deployment of
           screening technology. Without a comprehensive, strategic deployment plan and
           a process for approving changes to the plan, TSA decision makers do not have a
           systematic approach to maximizing technology advances for reducing current
           and evolving threats. Moreover, the absence of a comprehensive strategy to
           deploy AIT units may lead to underused AIT units at airports, possibly
           inefficiently using resources to purchase and deploy underused AIT units, and
           reducing the security benefits of AIT by continuing to use walkthrough metal
           detectors to screen passengers.

           Actions Taken During the Audit

           TSA officials recognized the benefits of developing and maintaining a strategic
           deployment plan for its passenger screening equipment and began drafting a
           comprehensive deployment strategy in July 2012. TSA drafted two separate
www.oig.dhs.gov                                    5                                          OIG-13-120

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            documents—one to provide a historical record of AIT deployment; the second to
            provide a deployment strategy for all Passenger Screening Program equipment.
            As of April 2013, the documents were still in draft. A comprehensive, strategic
            deployment plan defining deployment goals may eliminate or minimize
            problems in future equipment deployments.

            Data Reliability

            TSA did not have adequate internal controls to ensure accurate data on AIT use.
            We assessed PMIS data in accordance with the Government Accountability
            Office's guidance, Assessing the Reliability of Computer-Processed Data.3 We
            could not determine the reliability of PMIS data used to report AIT use
            because—

                          PMIS application and quality controls were not sufficient to identify
                          and correct potential errors;
                          Airports discarded original source documents, preventing us from
                          reconciling the information; and
                          PMIS and airport source documents during limited validation testing
                          for a 10-day timeframe for five category X airports were inconsistent.4

            PMIS Application Controls

            PMIS application controls did not ensure airports reported accurate passenger
            throughput data to TSA headquarters. The Government Accountability Office
            defines application controls as internal controls incorporated directly into
            computer applications to help ensure the validity, completeness, accuracy, and
            confidentiality of transactions. Application controls include processing controls,
            data input, and system access.

            PMIS may identify passenger throughput entries that exceed hourly thresholds
            for a check lane, but it does not prevent the system from accepting incorrect
            entries. TSA designates upper limits for passenger check lane throughput, and
            PMIS notifies a reviewer when an entry exceeds the limit. PMIS does not
            indicate which lane, hour, or screening equipment exceeded the limit. TSA
            attempted to demonstrate the review process, but could not determine which
            entry exceeded the limit. In this case, a reviewer may approve a submission
            without correcting potential errors. Furthermore, TSA cannot be certain that

   3
    Assessing the Reliability of Computer-Processed Data, GAO-09-680G, July 2009, www.gao.gov.
   4
    TSA classifies its regulated U.S. airports into one of five categories—X, I, II, III, and IV. Category X airports
   generally have the largest number of passengers boarding planes, and category IV airports have the least.

www.oig.dhs.gov                                            6                                                 OIG-13-120
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           inaccurate submissions are thoroughly reviewed because PMIS automatically
           accepts submissions within 48 hours.

           PMIS does not have system access controls that prevent unauthorized or
           accidental changes. In one instance, we identified a checkpoint where PMIS
           showed AIT throughput that was more than double the total customer
           throughput at that checkpoint (figure 2). TSA officials explained that a change in
           PMIS settings resulted in recording inaccurate AIT throughput.
            Figure 2: Error on AIT Utilization Report for a Category X Airport




              Source:fTSA.f


           PMIS Quality Controls

           TSA’s quality controls for PMIS did not ensure airports submit accurate data to
           TSA headquarters for reporting the number of passengers screened by AIT.
           Controls are essential for an agency to achieve effective and efficient program
           results and safeguard the integrity of their programs. Quality controls include
           complying with approved policies and procedures, approving and reviewing data,
           and verifying and reconciling information.

           Although TSA has guidance documenting responsibilities for PMIS data entry and
           review, that guidance does not include procedures for capturing and validating
           AIT data. TSA’s guidance includes the PMISfWebfUserfGuide and the Officefoff
           SecurityfOperationsfFieldfGuide:fImprovingfSecurityfEffectivenessfbyfOptimizingf
           UtilizationfoffAdvancedfImagingfTechnology. These documents define PMIS data
           fields, identify fields requiring data entry, and provide examples of TSA reports
           on AIT.

           TSA did not develop standard procedures or guidance to instruct airports on
           recording or entering data into PMIS. For example, the five airports visited used
           different datasheet logs to record AIT throughput. Additionally, these airports
           did not have a documented procedure for validating AIT throughput data prior to
           entering the information into PMIS. Without specific procedures on data
           validation, TSA cannot verify that data entered into PMIS are accurate and
           reliable.




www.oig.dhs.gov                                    7                                   OIG-13-120

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


           TSA is unable to assess PMIS data accuracy because it does not require airports
           to maintain source documents for AIT throughput data. Four of the five airports
           visited could not immediately provide documentation to validate PMIS data.
           One airport maintained the original records at each checkpoint for 30 days and
           then transferred those records to an off-site storage facility. Airport personnel
           were not able to provide the files quickly when requested because the records
           were not organized. TSA confirmed it has not tested the accuracy of AIT data in
           PMIS; instead, it relies on staff experience with throughput data to identify
           problems with the data.

           Airports’ manual processes for recording and entering AIT throughput in PMIS
           may lead to inaccurate information and do not provide an audit trail to validate
           data accuracy. As illustrated in figure 3, TSOs record passenger throughput using
           pen and paper, calculate the hourly throughput, and enter the information into
           PMIS.

             Figure 3: Manual Process to Capture Hourly AIT Throughput




                                        TSO                      TSO manually
                                     manually                   calculates each
                                      records                      hour’s AIT
             AIT counter             hourly AIT                   throughput        TSO enters AIT
              increases                count
              with each                                                           throughput data into
             passenger                                                                   PMIS
              screened

            Source:fOIGfanalysisfoffTSAfairportfprocess.

           We tested a sample of PMIS data for a 10-day period at five category X airports
           to evaluate data reliability. We were not able to develop a systematic test
           approach because there were no standard procedures and requirements for the
           airports to maintain manual records. However, based on this limited testing, we
           identified the following problems during our data reliability review:

                  •	 AIT throughput data recorded in PMIS were different than the source
                     document.
                  •	 AIT throughput data on the source document were not recorded in PMIS.
                  •	 The starting AIT count was different from the previous day’s ending AIT
                     count.
                  •	 AIT throughput source documentation was missing.


www.oig.dhs.gov                                            8	                                    OIG-13-120

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Without documented procedures standardizing the process to capture AIT
           throughput and stronger controls to validate AIT data, TSA cannot ensure data in
           PMIS are accurate and complete. Without reliable throughput data for AIT, TSA
           decision makers cannot ensure the optimal use of its machines, cannot measure
           the effectiveness of the technology, and cannot implement improvements in
           efficiencies.

           Recommendations

           We recommend that the Deputy Administrator, Transportation Security
           Administration:

           Recommendation #1:

           Develop and approve a single, comprehensive deployment strategy that
           addresses short- and long-term goals for screening equipment.

           Recommendation #2:

           Develop and implement a disciplined system of internal controls from data entry
           to reporting to ensure PMIS data integrity.

           Management Comments and OIG Analysis

           TSA provided comments to the draft of this report. According to its response,
           TSA agreed with our recommendations. A summary of the responses and our
           analysis follows. We included a copy of the management comments in their
           entirety in appendix B.

           In its comments, TSA asserted it created an Executive Steering Committee that
           met weekly to discuss deployment goals and progress; technology development
           and operational reliability; operator hiring and training progress; operational
           metrics; Congressional, stakeholder, and international engagements; and
           opportunities for continuous improvement. However, the results of the steering
           committee’s decisions were not developed into a written baseline to respond to
           and plan for evolving threats, goals, and priorities. TSA acknowledged the
           recommendations will help it develop a greater focus on documenting its short-
           and long-term strategies and improve internal controls relative to data used to
           influence or inform those strategies.

           Response to Recommendation #1: TSA concurred. TSA launched an effort to
           develop and approve updated deployment strategies that address short- and

www.oig.dhs.gov                               9                                      OIG-13-120

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           long-term goals. The deployment strategies will include Risk Based Security
           goals and a methodology for assessing the impact of unplanned events.

           OIG Analysis: While TSA’s actions are responsive to the recommendation, TSA
           did not provide sufficient detail or a target date for completion of its deployment
           strategy documents. This recommendation is unresolved and will remain open
           until TSA provides its approved comprehensive deployment strategy.

           Response to Recommendation #2: TSA concurred. TSA agreed that its system
           can benefit from establishing standard processes and procedures for collecting,
           calculating, and entering AIT and walkthrough metal detector passenger
           throughput, as well as developing auditing mechanisms to ensure the processes
           are followed and TSA can identify and correct incorrect data. TSA noted it was
           able to both increase the number of AIT deployed and reallocate millimeter
           wave units to mitigate the removal of backscatter units without degradation in
           the percent of passengers screened. In addition, TSA asserted PMIS has
           demonstrated the ability to provide data on AIT utilization.

           OIG Analysis: TSA’s response to this recommendation does not fully address
           the intent of the recommendation. Although TSA acknowledged the benefit of
           establishing standard processes and developing auditing mechanisms for AIT and
           walkthrough metal detector throughput, the component did not provide specific
           actions it will take to address the recommendation. The recommendation is
           unresolved and will remain open until TSA develops and implements internal
           controls to ensure PMIS data integrity.




www.oig.dhs.gov                                10                                       OIG-13-120

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   In response to a congressional request, we audited TSA’s deployment and use of AIT.
   Our audit objective was to determine whether TSA ensured AIT units are being
   effectively deployed to and fully used in airports. We conducted this audit in response
   to a request by Representative John Mica, Chairman, Subcommittee on Government
   Operations, Committee on Oversight and Government Reform. Representative Mica
   questioned whether TSA was wasting taxpayer dollars by purchasing and deploying AIT
   units that were not being used.

   We reviewed Federal regulations, departmental guidance, and agency procedures for
   AIT deployment and use, as well as best practices for equipment deployment and data
   reliability. We reviewed acquisition, deployment, and contract documentation for AIT.
   We also reviewed TSA guidance on PMIS.

   We interviewed TSA headquarters staff responsible for the acquisition, deployment, and
   use of AIT in the following offices: the Office of Security Capabilities, Office of Security
   Operations, and the Office of Acquisition. In addition, we interviewed TSA staff
   responsible for the use of AIT and observed AIT operations at five airports—Chicago
   O’Hare International Airport, John F. Kennedy International Airport, Lambert-St. Louis
   International Airport, Newark Liberty International Airport, and Seattle-Tacoma
   International Airport.

   To identify AIT throughput, we extracted PMIS data from TSA headquarters’ reporting
   system to review passenger throughput data from August 1, 2011, through
   July 31, 2012. We used IDEA software to review the PMIS data for exceptions to TSA’s
   standard throughput rates and to summarize overall AIT usage at TSA’s 28 category X
   airports.

   We tested the accuracy of passenger throughput data we extracted from PMIS and
   concluded the data were of undetermined reliability. We tested PMIS application
   controls by evaluating data against TSA’s standard throughput thresholds and identified
   instances where values exceeded those limits.


www.oig.dhs.gov                                11                                        OIG-13-120

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We could not validate PMIS for our proposed timeframe of August 1, 2011, through July
   31, 2012, because airports did not retain the records. We requested that the five
   airports visited maintain and provide source documents for a 10-day period from
   December 1, 2012, to December 10, 2012. One airport did not comply with the original
   request so its time period was from January 19, 2013, to January 28, 2013. Our review
   identified inconsistencies between PMIS and the airports’ original source documents.

   We conducted this performance audit between May 2012 and May 2013 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards (GAGAS), except that we identified an impairment to
   our independence in appearance. During this audit, it came to our attention that a
   family member of a senior OIG official was employed by an entity associated with this
   audit. To resolve this issue, we employed safeguards to protect the work from the
   threat to our independence in appearance. Our safeguards included re-evaluating the
   evidence supporting our findings and conclusions. In our opinion, the impairment to
   our independence in appearance did not affect the findings and conclusions developed
   during this audit.

   GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based upon our
   audit objective. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based upon our audit objective, and that the impairment to
   our independence in appearance did not affect this evidence or any findings and
   conclusions.




www.oig.dhs.gov                              12                                     OIG-13-120

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                        U.S. Dep~~rtmeal of Homoload Stcllrily
                                                                        70 I Sou Ill 12th Street
                                                                        Arting10n. VA 20598-6021


                                                                        ~-           Transl?ortatio n
                                                                        \~t" Secunty
                   AOO 1..5 2013                                          "~· ,.r:>· Adntin.istration



                                                     INFORMATION


              MEMORANDUM FOR:              Anne L. Richards
                                           Assistant Inspector General for Audits
                                           U.S. Department of Homeland Security

              FROM:                        JohnS.  Pistole ~~~
                                           Administrator
                                           Transportation     urity Administration


              SUBJECT:                     Transportation Security Administration 's Deployment and Use of
                                           Advanced Imaging Technology - For Official Use Only OJG
                                           Project No. 12-/37-AUD-TSA.




              This memorandum constitutes the Transportation Security Administration' s (TSA) response to
              the Department of Homeland Security (DHS) Office of the Inspector General (OIG) draft report
              entitled, Transportation Security Administration's Deployment and Use ofAdvanced Imaging
              Technology - For Official Use Only O!G Project No. 12-1 37-A UD-TSA.

              Background

              The report identifies measures that can be taken by TSA to enhance its deployment and use of
              Advanced Imaging Technology (AJT). TSA begin deploying AIT in 2007 and accelerated its
              deployment after the attempted airplane bombing on December 25, 2009. In 2012,
              Representative John Mica requested that the U.S. Department of Homeland Security (DHS)
              Office of Inspector General (OIG) conduct an audit to determine whether TSA is effectively
              deploying AIT and is fully uti lizing the equipment at airports.

              Discussion

              In 2007, TSA conducted a limited acquisition of eight low-rate initial production (LRIP) AITs to
              detemline the applicability of such technology in the checkpoint environment. Based on the
              success of that initial testing, an additional3S units were purcbased in 2008 and fielded in the
              secondary position (post-Walk-Through Metal Detector (WTMD) and for secondary screening
              only) at approximately 19 airports. In 2009, six of the original units were re-configured to the




www.oig.dhs.gov                                             13                                                   OIG-13-120

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


                                                                                                                2


             primary position (co-located with WTMD) to test the feasibility and performance of AIT as a
             primary screening device. Through data collection efforts during several extended field and
             laboratory tests, it was determined that AIT would be successful in the primary position for the
             detection of metallic and non-metallic threats.

             After the attempted airplane bombing on December 25, 2009, TSA modified screening
             procedures to improve the ability to detect explosives hidden in sensitive areas of the body and
             accelerated AIT deployment. These strategies were intended to improve TSA' s ability to detect
             non-metallic explosives and to increase the use of technology to detect threats concealed on the
             body in a way that mitigated the need for physical screening procedures. Over the following
             3 years, TSA successfully deployed close to I ,000 AIT machines across the system; hiring and
             training operators, collaborating with internal and external stakeholders to socialize the new
             security posture, and attending to customer service impacts by a multitude of outreach events and
             awareness campaigns.

             To affect this amount of change in such a short period of time, TSA stood up an Executive
             Steering Committee that met weekly to discuss the items below and ensure immediate attention
             to any element of the deployment that presented a risk to the schedule or the efficacy of the
             effort.

                  •   Deployment goals and progress;
                  •   Technology development, operational reliability;
                  •   Operator hiring and training progress;
                  •   Operational metrics (AIT Throughput, AIT Utilization, Passenger Opt-Outs, etc.);
                  •   Congressional Engagements;
                  •   Stakeholder Engagements (media, passenger services outlets, industry partners, etc.);
                  •   International Engagements; and
                  •   Opportunities for continuous improvement on all fronts

             The recommendations in the OIG's report will help TSA to continue developing a greater focus
             on documenting short- and long-term strategies as well as improving our internal controls
             relative to data that is used to influence or inform those strategies.

             TSA concurs with the recommendations provided by OIG and has already taken steps to address
             the recommendations. What follows are TSA's specific responses to the recommendations
             contained in the OIG report.

             Recommendation #1: D evelop and approve a single, comprehensive deployment strategy that
             addresses short and long-term goals for screening equipm ent.

             TSA concurs. TSA has already launched the effort to develop and approve updated deployment
             strategies that address short- and long-term goals. These strategies will include the impact of
             recent and upcoming Risk Based Security goals as well as provide methodology for assessing
             impact of unplanned events, such as security-related incidents.




www.oig.dhs.gov                                               14                                                    OIG-13-120

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


                                                                                                               3



              Rccomm cnd~t tion #2: Develop and implement a disciplin ed system of internal controls from
              data entry to reporting to ensw e PMIS d41a integrity.

              T SA concurs. We agree with the recommendation for improving our internal controls for the
              manual collection, calculation, and data entry of passenger volumes utilizing AIT and WTMD
              equipment. We agree that the system can benefit from establishing standard processes and
              procedures for these activities as well as developing auditing mechanisms to ensure they are
              followed and that incorrect data can be identified and corrected expeditiously.

              GA0-09-680G "Assessing Data Reliability" defmes risk as "the likelihood that using data of
              questionable reliability could have substantial negative consequences on the decisions of
              policymak.ers and others." Given that authoritative definition, the Office of Security Operations
              stipulates that TSA was able to increase the total number of deployed AlT to just under I 000
              units and increased AIT utilization from about 400,000 passengers per day to over l ,000,000
              passengers per day. Using PMIS data in early 2013, TSA was also able to strategically reallocate
              129 millimeter wave units to mitigate the required removal of the remaining 171 backscatter
              (non-Automated Target Recognition enabled) units without degradation in percent of passengers
              screened. The PMIS application bas demonstrated the ability to provide data on AIT utilization.
              We realize there is always room for improvement to ensure we are collecting the most accurate
              data possible.

              In summary, we concur with the OIG's recommendation . TSA will continue to build on our
              ability to provide the most accurate data on AIT utilization by working with others internally and
              externally to improve our internal controls for the manual collection, calculation, and data entry
              of passenger volumes utilizing our AIT and WTMD equipment.




www.oig.dhs.gov                                              15                                                    OIG-13-120

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Linda Howard, Director
   Christine Haynes, Audit Manager
   Tiffany Bellinger, Auditor
   Karen Gardner, Auditor
   David Lu, Program Analyst
   Tessa May-Fraser, Program Analyst
   Matthew Noll, Program Analyst
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Independent Report Referencer




www.oig.dhs.gov                            16                   OIG-13-120

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Transportation Security Administration

   Administrator
   TSA Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  17                        OIG-13-120

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
